               United States Department of the Interior
                                Office of Inspector General
                                      Washington, D.C. 20240



                                                                                   Oct. 13, 2004


Memorandum

To:            Sue Ellen Wooldridge
               Solicitor

               Rebecca Watson
               Assistant Secretary, Land and Minerals Management

From:          Earl E. Devaney
               Inspector General

Subject:       Results of OIG Investigation into BLM-Robbins Settlement Agreement

        On August 14, 2003, we initiated an investigation regarding a settlement agreement
entered into between the Bureau of Land Management (BLM) and Harvey Frank Robbins. We
later expanded our investigation to address questions posed by Public Employees for
Environmental Responsibility (PEER) in a letter dated August 28, 2003 [               ]
regarding the circumstances surrounding the settlement agreement. The results of our
investigation are detailed in the attached Report of Investigation.

        Ultimately, our investigation could not determine what motivated senior BLM officials to
propose and advance the idea of a settlement between Robbins and BLM. Although she, alone,
does not recall doing so, by all other accounts, BLM Director Kathleen Clarke instructed that the
settlement agreement be pursued – this, despite the conclusions of an independent review team
that the BLM Worland field office personnel had conducted themselves properly while Mr.
Robbins had not. Having directed this action, Ms. Clarke then removed herself entirely from the
process, leaving her career deputy, Frances Cherry, responsible for signing the settlement
agreement on behalf of BLM.

         As the career senior BLM official in this matter, Deputy Director Cherry appears to have
conducted himself without concern for the implications a settlement agreement would have on
the BLM rangeland program and without regard for the objections raised by his career
subordinates. While he cannot be held responsible for information that was withheld from him –
that is, the objection of the U.S. Attorney’s Office – he ought to be responsible for his passive
acquiescence to an agreement, for which, yet another independent review team concluded
[should be terminated].



        INFORMATION HAS BEEN REDACTED PURSUANT TO FOIA EXEMPTIONS 5, 6, & 7C
        Thus, the scene was set for Robert Comer (who at the outset of this matter held the
political position of Associate Solicitor, Division of Land and Water, [
                                                       ] to negotiate an agreement with Mr.
Robbins and his attorney directly, with little or no input by senior BLM officials at headquarters,
and with total disregard for the concerns voiced by career field personnel. Later in the process,
Mr. Comer would also unilaterally dismiss, and fail to communicate to decision-makers, the
concerns raised by the U.S. Attorney’s Office responsible for taking judicial enforcement against
violators of BLM rangeland rules and regulations. After the fact, Mr. Comer distorted the
position of the U.S. Attorney’s Office in regard to an outstanding Bivens/RICO Case, his
handling of which left eight BLM employees still subject to liability.

       [An Office of the Solicitor staff attorney] also bears certain responsibility. Although he
made an initial effort to extract himself from the process, in the end, he capitulated to the
pressure and intimidation of Robert Comer [
               ]. While [he], like Cherry, may have had an ethical obligation to object more
vigorously to the pursuit of the settlement agreement, he, too, passively conceded to the ill-
advised will of his superiors.

        In the end, we once again find that when the normal processes are circumvented, the
interests of the Department are compromised; and in this matter, also placed the Department at
unnecessary litigation risk, as well as in a position of potential public embarrassment.

        As of this writing, the settlement agreement has been terminated due to breach by
Robbins. Since it has been terminated, no substantive issues related to the settlement agreement
are outstanding. The issues behind the conception, negotiation and crafting of the agreement,
however, remain wholly unaddressed.

        On March 29, 2004, we delivered to Roderick Walston, then Acting Solicitor, a
memorandum [                ] outlining the areas of greatest concern related to the conduct of
then-Associate Solicitor, Robert Comer. While we believe that the information provided in our
March 29 memo and its supporting documents sustain the contention that Mr. Comer failed to act
impartially and gave preferential treatment to Mr. Robbins in negotiating and crafting the
settlement agreement, Mr. Walston took no action prior to his resignation from the Office of the
Solicitor.

        In my view, the conduct chronicled in this report cries out for administrative action. It is
also the very kind of conduct that DOI employees perceive is either taken lightly or goes wholly
unaddressed, as detailed in our recent report on Conduct and Discipline. The Department is
presented, in this matter, with an opportunity to change its practice in this regard.

        With that, I forward this memorandum and attachments for your consideration and any
action you deem appropriate. I would appreciate being advised of any action you take, in order
to respond more completely to PEER. If I do not hear from you in 30 days, however, I will
finalize and send my response to PEER.

[              ]



       INFORMATION HAS BEEN REDACTED PURSUANT TO FOIA EXEMPTIONS 5, 6, & 7C
                        Investigation of Settlement Agreement
                       Between BLM and Harvey Frank Robbins
On August 14, 2003, we initiated an investigation into the facts and circumstances surrounding a January
2003 settlement agreement between the U.S. Department of the Interior’s (DOI) Bureau of Land
Management (BLM) and Harvey Frank Robbins, a rancher in Thermopolis, Wyoming.

We focused our investigation on determining whether senior BLM management officials in Washington,
D.C., and the BLM Wyoming State Office (WSO) exercised undue influence by directing BLM’s
Worland, Wyoming, Field Office (WFO) staff not to cite or pursue trespass and cattle grazing violations
against Robbins during the course of settlement negotiations so as not to jeopardize the settlement. We
also addressed complaints that the execution of the settlement agreement between Robbins and the BLM
advanced even after the U.S. Department of Justice’s (DOJ) written objections to DOI’s Office of the
Solicitor (SOL).

We expanded our investigation further after we received a written request for an inquiry from Public
Employees for Environmental Responsibility (PEER) on August 28, 2003, asking our office to
investigate concerns related to this settlement agreement.

Our investigation determined that, in this matter, the role of Robert Comer, then Associate Solicitor,
Division of Land and Water, was disconcerting as was the role of an SOL staff attorney. Specifically,
Comer advanced the settlement agreement between Robbins and the BLM even after receiving written
objections from the DOJ, U.S. Attorney’s Office, Cheyenne, Wyoming, and the BLM WFO. Neither
Comer nor the SOL staff attorney informed DOI senior leadership of these objections nor did they inform
an administrative law judge in the DOI Office of Hearings and Appeals who had Robbins’ matters
pending in his court.

We are forwarding this report to the Assistant Secretary for Lands and Minerals Management and the
Solicitor for the administrative action they deem appropriate.

DETAILS

During the course of our investigation, we conducted dozens of interviews at various locations
throughout the United States, and we obtained sworn statements from numerous DOI employees whose
role was central to the preparation, negotiation, and execution of the settlement agreement between BLM
and Robbins. We also obtained and reviewed hundreds of documents associated with this matter.

               BLM Authority and Jurisdiction Over Rangeland and Grazing Management

The Wyoming BLM State Director, in consultation with affected resource advisory councils, is
responsible for developing standards for healthy rangelands and guidelines for livestock grazing
management on 18 million acres of Wyoming’s public rangelands.1 The purpose in developing and
applying these standards and guidelines is to achieve the four fundamentals of rangeland health outlined
in the grazing regulations:

               1) Watersheds are functioning properly.
1
    43 C.F.R. § 4180.1 (1995); § 4180.2 (1996); and § 4120.4 (1990).

              INFORMATION HAS BEEN REDACTED PURSUANT TO FOIA EXEMPTIONS 5, 6, & 7C.
             2) Water, nutrients, energy are cycling properly.
             3) Water quality meets state standards.
             4) Habitat for special status species is protected.2

The development and implementation of standards and guidelines enable “on-the-ground”
management of the public rangelands to maintain a clear and responsible focus on both
the health of the land and its dependent natural and human communities.3 These standards
and guidelines take into account the following land-use planning-process factors:

    •    The laws, regulations, and policies governing BLM’s administration and
         management of the public lands and their uses.

    •    Specific requirements of various federal laws and the objectives that require BLM
         to consider the social and economic well-being of the local communities in its
         management process.

    •    Statewide consistency and guidance in the preparation, amendment, and
         maintenance of BLM land use plans.

    •    The development of the site-specific objectives and the methods and practices used
         to implement the land use plan decisions.4

Both the Taylor Grazing Act of 19345 and the Federal Land Policy and Management Act of 19766
(FLPMA) recognized the importance of sound land management to address deteriorating federal range
lands. BLM regulations provide specific guidelines on the authorized and prohibited uses of public lands
and other BLM-administered lands. BLM’s administrative responsibilities include addressing trespassing
and overgrazing of public lands.7

BLM’s regulations provide uniform guidance for administration of grazing on public lands.8 BLM
controls grazing through the use of permits or leases.9 Leases and permits have terms and conditions
appropriate to achieve resource objectives and address the types and levels of permitted use.10 The
regulations prohibit grazing on public lands without a permit, and if unauthorized use occurs, BLM can
order the removal of livestock.11 BLM can also suspend or cancel a permit if a permit-holder violates the
terms and conditions of the permit, and the permittee or lessee may be subject to civil penalties.12



2
   http://www.wy.blm.gov/range/sandgs.htm; 43 C.F.R. § 4180.1 (1995).
3
   http://www.wy.blm.gov/range/sandgs.htm.
4
  Id.
5
   43 U.S.C. §§ 315-315b (2004).
6
  43 U.S.C. §§ 1751-1753 (2004).
7
  43 C.F.R. §§ 4140.1 and 4150.1.
8
   43 C.F.R. § 4100.0-1 (1984) (exclusive of Alaska).
9
   43 C.F.R. § 4130.2 (1996).
10
    The objectives are to promote healthy sustainable rangeland ecosystems; to accelerate restoration and improvement of
public rangelands to properly functioning conditions; to promote the orderly use, improvement, and development of the public
lands; to establish efficient and effective administration of grazing of public rangelands; and to provide for the sustainability
of the western livestock industry and communities that are dependent upon productive, healthy public rangelands.
43 C.F.R. § 4100.0-2 (1995).
11
    43 C.F.R. §§ 4150.1- 41.70.2-2 (2003).
12
    43 C.F.R. §§ 4140.1 (1996) and 4170.1-1 (1995).
                                                               2
                                        Harvey Frank Robbins

Harvey Frank Robbins is one of approximately 293 permittees and lessees who holds federal land
grazing authorizations under the jurisdiction of the BLM WFO. Robbins purchased the High Island
Ranch and Cattle Company in Thermopolis, Wyoming, in 1994 and currently holds a grazing permit due
to expire November 30, 2004. Robbins purchased the H D Ranch in 1998 and held a grazing permit,
which expired October 31, 2013. Finally, Robbins purchased the Owl Creek Ranch, now titled H Frank
Robbins and [wife of Harvey Frank Robbins], in 2000. This property was assigned a grazing permit that
expired January 15, 2005. Robbins has access to 55,579 acres of public land in the confines of the three
properties.

In 1994, BLM started issuing grazing and trespass notices of violation against Robbins. In 1994 a five-
year Special Recreation Use Permit (SRUP) was issued to Robbins for the High Island Ranch. The
SRUP was subsequently suspended, then placed in a probationary status. When Robbins applied for
renewal of the SRUP, the renewal was denied due to various violations.

In 1996, after informal attempts by BLM were made to resolve the various violations by Robbins, BLM
began issuing grazing trespass decisions. Robbins, in turn, attempted to restrict BLM’s access to public
lands near his properties.

In August 1998, Robbins filed a civil complaint in Federal District Court, Cheyenne, Wyoming, that
named eight BLM employees in their individual and professional capacities as defendants in a civil
Bivens and Racketeer Influenced and Corrupt Organization Act (RICO) claim. At the time that this
lawsuit was initially filed, six of these BLM employees worked at the BLM WFO and two were BLM
law enforcement officers. This lawsuit alleges that BLM and the defendants reportedly extorted and/or
blackmailed an easement from Robbins. In his lawsuit, Robbins is seeking $12 million in economic,
emotional, and punitive damages. The BLM employees in this lawsuit were initially defended by the
DOJ U.S. Attorney’s Office, Cheyenne, Wyoming; however, on March 22, 2004, the U.S. Attorney’s
Office was recused by DOJ’s Executive Office for U.S. Attorneys in Washington, D.C., from defending
the BLM employees named in this lawsuit. Representation was then reassigned to the U.S. Attorney’s
Office in Denver, Colorado. The matter is being handled by DOJ’s Appellate Division in Washington,
D.C. It is presently pending a decision in the 10th Circuit Court of Appeals.

Actions initiated by BLM toward Robbins over the years, in regard to use of his land, include issuance of
several grazing and trespass violations, denied issuance of permits, cancellation of permits, modification
of permits, and cancellation of a right-of-way grant.

By early 2002, the BLM and Robbins were actively involved in 16 administrative appeals before DOI’s
Office of Hearings and Appeals and several rangeland management cases in Federal District Court.

By January 2003, BLM had entered into a settlement agreement with Robbins that addressed its
continued dealings with him on rangeland management. Central to this agreement was a condition that
BLM would dismiss the16 pending grazing and trespass adjudications against him.

By January 30, 2004, BLM had voided the settlement agreement with Robbins based on his failure to
comply with the terms of the agreement. The BLM WFO continues to battle with Robbins on his various
land violations.



                                                    3
                  Meeting with Robbins, Main Interior Building, Washington, D.C.

On February 8, 2002, BLM Chief of Staff Conrad Lass arranged a meeting with Robbins and Department
representatives. This meeting afforded Robbins the opportunity to meet with senior BLM staff to express
his complaints he had about BLM’s enforcement of grazing and rangeland management regulations.
Congressional staff assistants from Wyoming Senators Craig Thomas and Michael B. Enzi’s offices also
attended this meeting. During this meeting, Robbins read from a prepared script, making claims of
harassment, bad faith, and blackmail by BLM WFO staff. Robbins also discussed numerous instances of
what he described as a very difficult working relationship between himself and the BLM WFO.

Individuals attending the February 8, 2002, meeting included four representatives from the BLM,
Regional Solicitor Robert Comer, the staff assistants from the Wyoming Senators’ offices, a member of
the DOI Congressional liaison staff, and two friends of Robbins and his father.

Our investigation disclosed that Robbins’ father’s friend who attended the meeting owns and operates a
Washington, D.C.-based political consulting business. He was interviewed in regard to his role and
purpose in attending this meeting and stated that his presence was requested by Robbins’ father in order
to monitor the meeting.

This friend stated that Robbins had an ongoing dispute with BLM’s WFO that dated back to 1994 and
that he had difficulty meeting with BLM headquarters management to resolve the disputes that centered
on grazing rights. He stated that during this meeting at BLM’s Washington Office, both Robbins and
BLM officials voiced their opinions regarding the issues, although no resolutions were reached.

He said none of the other meeting participants questioned his attendance at the meeting but stated he
could justify his own presence there. He said he was not paid for his attendance at this meeting and that
he and Harvey Robbins, who is originally from Alabama, have known each other since childhood.

He said he did not attend any other meetings regarding this matter but stated that sometime after this
February 8, 2002 meeting, he placed a telephone call to the BLM’s legal office in Washington, D.C., to
follow up on the results of the meeting. He advised that he could neither recall the time frame when he
placed this phone call nor the name of the individual with whom he spoke and the specific issues that
were discussed. He stated that he spoke with Harvey Frank Robbins’ father over the Christmas holidays
(2003) and was told that the disputes between his son and BLM had been resolved.

He recalled that in addition to himself and Robbins, there were approximately 10 other individuals in
attendance at the meeting, including individuals from the BLM’s WFO as well as Lass. He said the only
individual he knew at this meeting other than Robbins was Lass. When questioned as to his relationship
with Lass, he said he had met Lass while conducting tax work for Southern Company, Atlanta, Georgia,
where Lass was formerly employed prior to becoming BLM Chief of Staff.

According to Conrad Lass, Chief of Staff, BLM, Washington, D.C., he arranged the February 8, 2002
meeting with Robbins, BLM, and Department representatives at the request of a friend of Robbins to
afford Robbins the opportunity to meet with the BLM WSO Director to communicate and discuss his
concerns about BLM.

Lass confirmed that he is acquainted with Robbins’ father’s friend and that he first met him while
employed at Southern Company, prior to becoming employed by BLM. Lass stated that this friend was

                                                    4
retained by Southern Company as a consultant/lobbyist, and it was in this capacity that Lass became
acquainted with him.

According to Lass, he has no knowledge as to who invited Robbins’ father’s friend to attend the February
8, 2002 meeting. He said he was also not aware of his purpose in attending this meeting, and he did not
know whose interests he was representing.

Lass neither recalled Robbins’ father’s friend speaking at the meeting nor playing any active role in it.
According to Lass, the friend contacted him following the meeting to inquire about the status of the
Robbins matter. Lass stated that the fact that he had known the friend previously through his
employment at Southern Company played no role “…whatsoever influencing me in any way regarding
any issues concerning Robbins.” Lass further stated that he made it clear to BLM Director Kathleen
Clarke that he believed it would be prudent for him not to involve himself in any significant way in the
BLM/Robbins’ issues. Lass stated:

        The reason I decided it would be best for me not to play any significant role in the
        BLM/Robbins dispute was because Robbins’ concerns/complaints centered on the BLM
        Worland Office. Being a native of Worland, WY, coupled with the fact that my family
        resides in Worland and were active in local Worland politics, in order to avoid any
        appearance of bias or conflict of interest, I decided to distance myself from any
        significant involvement in the BLM/Robbins dispute.

                                   Pre-Settlement Agreement Events

Prior to the settlement agreement with Robbins, an internal review was conducted by the Department
because of complaints received from Robbins, personnel of the BLM, and special interest groups. The
review was conducted from March 18 – 21, 2002, at the request of the Deputy Director of BLM, because
of allegations made by Robbins during the February 8, 2002 meeting in Washington, D.C. This review
resulted in a report dated April 16, 2002.

The BLM team members who performed this review consisted of a Deputy Assistant Director; a BLM
District Manager; and another BLM employee.

The review established that Robbins’ complaints about alleged abuses of authority by WFO employees
were generally without merit and that the WFO had not exceeded its delegated authority in its dealings
with Robbins.

As part of the review and as an attachment to the April 16, 2002 report, a BLM Manager, WFO,
forwarded a memorandum dated March 7, 2002, to Bob Bennett, BLM Wyoming State Director, the
review team members, DOJ, and the SOL. Included with this memorandum were a briefing paper and
attachments regarding Robbins’ cases. The briefing paper reported that since acquiring various BLM
permits under the WSO’s administration, Robbins had demonstrated a complete disregard for BLM’s
authority to manage public lands and failed to abide by the terms and conditions of the BLM permits he
was issued. The briefing paper reflected the following:

    •   The cumulative effects of unauthorized grazing by Robbins’ livestock was causing significant
        damage to public land resources on his permitted allotments and Robbins’ livestock were
        trespassing on adjacent permittees’ allotments.
    •   Over the years, BLM received and followed up on numerous complaints from adjacent
        permittees regarding Robbins’ unauthorized use.
                                                    5
     •   BLM had done everything possible in an attempt to work with Robbins since his arrival in the
         Bighorn Basin of Wyoming.
     •   None of BLM’s efforts to stop Robbins’ continuing, unauthorized grazing use has had any effect.
     •   BLM attempted to have a dialogue with Robbins to correct problems and issues with his use of
         public lands.
     •   None of BLM’s informal efforts to deal with Robbins’ rangeland management violations
         resolved the problems, so consequently, BLM began issuing Robbins grazing and trespass
         notices in 1996.
     •   In 1996, Robbins began an attempt to restrict BLM access to manage the public lands.
     •   Robbins is either unwilling or unable to follow his permit responsibilities, and Robbins shows a
         complete disregard for public rangeland resources.
     •   On March 1 and 6, 2002, BLM performed a field investigation that found: “Robbins’ livestock
         are currently trespassing in violation of the Full Force and Effect decision.13 The BLM is very
         concerned that this unauthorized use will increase sustained, long-term ecological damage.” The
         report went on to say: “It appears that Mr. Robbins intends to ignore or defy any attempts of the
         BLM to manage the public land resources. BLM has not taken a formal action on this current
         violation. His past record and his current actions clearly demonstrate that BLM Trespass Notices
         have no effect on his behavior.”

As a result of the review, numerous recommendations were made and included, in part, the following:

         •   Request expediting [Office of Hearings and Appeals] reviews on the grazing cases and, if
             appealed to IBLA [Interior Board of Land Appeals] by Robbins, request those be expedited as
             well.
         •   Have state director intervene/facilitate to improve relations and communications.
         •   Consider other actions beyond trespass (i.e., impoundment, civil action, temporary restraining
             order).
         •   Future formal actions should be communicated with other entities (congressional contacts,
             Department, etc.) prior to taking action to reduce repercussions.
         •   Have employees improve identification to eliminate the perception of “BLM spying on Mr.
             Robbins” by marking vehicles, wearing uniform, and/or verbally identifying themselves as
             BLM.
         •   Based on needs for road maintenance, consider periodically maintaining BLM’s portion of the
             road to Robbins’ property.

According to a BLM Manager, Medford District Office, in April or May 2002, members of this review
team attended a meeting with BLM Director Clarke and then-Associate Solicitor for the Division of Land
and Water Robert Comer in order to provide Clarke a briefing of the team’s findings with respect to
Robbins’ allegations and complaints. The BLM Manager stated that Comer served as the attorney for the
SOL who handled BLM matters concerning rangeland activities.

The BLM Manager stated that prior to this meeting, Clarke was provided with a copy of the fact-finding
review report dated April 16, 2002, and that during the meeting Clarke inquired as to whether the team
found that the BLM WFO was acting objectively and neutrally in regard to its dealings with Robbins.
The BLM Manager stated that he told Clarke he did not believe the BLM WFO was acting as objectively


13
   A Full Force and Effect decision was pursuant to 43 C.F.R. § 4110.3-3(b). It was determined that the range resources
require immediate protection from excess use by livestock in consideration of drought conditions.
                                                              6
or neutrally as they should be in carrying out its enforcement responsibilities regarding trespass and
range management issues involving Robbins’ allotments of BLM land.

According to the BLM Manager, after discussing the issues, Clarke turned to Comer and requested that
Comer produce a settlement agreement to resolve the differences between Robbins and the BLM WFO.
The BLM Manager said Comer agreed to prepare a settlement agreement in an attempt to resolve the
differences and improve the relationship between Robbins and the BLM WFO.

                                         Settlement Agreement

On January 15, 2003, a settlement agreement between Robbins and the BLM was fully executed when
Robbins and his counsel signed the agreement. BLM Deputy Director Fran Cherry signed the agreement
on behalf of BLM on December 20, 2002. The purpose of the settlement was described as a way to
assure communication and consultation between Robbins and the BLM. It outlined terms and conditions
by which Robbins and the BLM would deal with each other. Central to this settlement agreement was a
condition that BLM conditionally stay 16 pending grazing and grazing trespass adjudications against
Robbins. The settlement agreement was also intended, in part, to resolve these 16 administrative appeals
pending before the DOI’s Office of Hearings and Appeals, as well as several rangeland management
cases in Federal District Court between Robbins and BLM. The settlement agreement did not contain
any provision or language regarding the Bivens/RICO lawsuit against the BLM employees.

The settlement agreement specified an “Informal Dispute Resolution” mechanism whereby the BLM
Director “or any designee she chooses in her sole discretion,” might review any issue that Robbins and
the BLM could not mutually agree upon or in which an amicable solution could not be reached. Robbins
and BLM also agreed that neither would pursue any legal or administrative remedies until such a review
occurred and a written decision or other written direction was issued by the Director’s office. This
agreement also granted Robbins flexibility for grazing, conditional transfer of the Owl Creek permit, a
right-of-way, and a Special Recreation permit. Robbins and BLM also agreed that it would be in their
“respective long term mutual interests to pursue good faith efforts to effect a land exchange.” The
agreement went on to say: “If an exchange occurs that eliminates BLM’s need for reasonable access now
provided by the Rock Creek Road, BLM would subsequently relinquish its public easement along Rock
Creek Road.” Robbins also agreed to a number of conditions, including not pursuing allegations that the
BLM violated the Freedom of Information Act.

Alan Kesterke, BLM Associate State Director, WSO, Cheyenne, Wyoming, stated that from August 2002
through January 2003, the time period when the Robbins settlement agreement was being drafted, he
served as Acting State Director for the WSO.

Kesterke stated that during the Fall of 2002, while the settlement agreement was being finalized, the
Lakewood, Colorado, SOL’s office, including Comer and an SOL staff attorney, instructed BLM not to
cite Robbins for any rangeland management violations because, in the SOL’s opinion, any such citing of
Robbins would likely provoke him and jeopardize Robbins entering into the settlement agreement.
Kesterke stated that some of the new grazing trespass issues raised were, in part, based on past
performance, which was a significant part of this agreement. According to Kesterke, in the Fall of 2002,
he communicated to the BLM WFO staff not to cite Robbins for any rangeland management violations
so the finalization of the settlement agreement would not be jeopardized, as he had been instructed to do.

A BLM Manager, WFO, acknowledged that on July 11, 2002, Kesterke directed him not to take any
other enforcement actions against Robbins due to the pending settlement agreement negotiations.

                                                     7
The BLM WFO Manager stated that a meeting was scheduled for May 29, 2002, between the WFO, the
WSO, the Rocky Mountain SOL, and DOJ to discuss courses of action in light of Robbins’ continued
pattern of unauthorized use. He said that “the intent of the foregoing meeting was to reach agreement
and implement a strategy for pursuing a temporary restraining order, livestock impoundments and [other]
action in response to continued violations by Robbins resulting in public resource damage.” He stated
that the meeting was cancelled by the BLM WSO Director on May 28, 2002, because according to the
Director, Comer and Robbins’ counsel were involved in a dialogue regarding a global settlement of all
Robbins’ issues.

The BLM WFO Manager stated that on May 29, 2002, he had a telephone discussion with an SOL staff
attorney, who told him that Comer was the “primary mover concerning a global settlement of the
Robbins matters.” He further stated that on July 11, 2002, he received a telephone call from the SOL
staff attorney, who told him that he (the SOL staff attorney) participated in a telephone conference
between Lass, Cherry, and Comer that centered around discussions that “Comer would coordinate a
global settlement with Robbins’ attorneys, and that Comer would not want any input from the SOL in
Denver or the BLM.”

Another BLM employee, WFO, stated:

       During approximately May 2002, [the BLM Wyoming State Director] directed the WFO
       to maintain a ‘hands-off’ approach on any previous or ongoing violations by Mr. Robbins
       because it would upset Robbins and degrade the relationship between Robbins and the
       BLM thereby creating difficulties to enter into a Global Settlement Agreement.

Contrary to the recollection of others, Clarke recalled that Comer brought forth the idea of a settlement
agreement. Clarke stated that she decided to have Cherry work with Comer on the proposed settlement
agreement and that she did not want any political appointees involved, which, she said, is one reason why
she delegated Cherry to work with Comer. Clarke also stated that there was no need for her to be
involved in the agreement on any level. She stated that she neither familiarized herself with the issues
surrounding the settlement agreement nor did she read the final version of the agreement.

An SOL staff attorney stated that he prepared and sent the first draft of the settlement agreement to
Comer on or about May 28, 2002, and that his SOL files indicated that, up until the time the settlement
agreement was executed on January 15, 2003, approximately 12 drafts of the agreement had been
prepared. According to the SOL staff attorney, he and Comer “had a rather extensive and ‘animated’
discussion” concerning Comer’s request that he draft the settlement agreement and that he told Comer
that he realized that Comer or others in Washington, D.C., could essentially negotiate any agreement that
they wanted. The SOL staff attorney, however, said he did not think that there was any way the WFO or
the WSO would accept the agreement.

The SOL staff attorney said he indicated to Comer that he was uncomfortable with drafting the
agreement and that he did not want to have anything to do with it. He said that Comer responded by
stating that he (Comer) did not have the necessary staff to take on this project and that Comer believed
they had an advantage in exercising the “power of the first pen,” meaning the power that goes with
preparing the first draft. The SOL staff attorney stated that he reiterated to Comer that he did not want
anything to do with the settlement agreement.

According to the SOL staff attorney, Comer said something to the effect that if he did not want to
cooperate in this matter, which was occurring at the direct initiative of the BLM Director or the

                                                     8
Secretary, then Comer would advise Secretary Norton or Clarke of the refusal. The SOL staff attorney
stated that Comer never directly ordered him to draft the agreement.

The SOL staff attorney stated that at the conclusion of his May 20, 2002, conversation with Comer,
Comer told him he did not want him to share drafts of the settlement agreement with any of the SOL staff
or with anybody in BLM. The SOL staff attorney stated that he did not know why Comer made this
request; however, he said he agreed to keep the drafts of the agreement confidential. The SOL staff
attorney said he wanted Comer’s assurance that he would not divulge that he (the SOL staff attorney) had
drafted the agreement, and Comer agreed.

The SOL staff attorney provided a copy of a “Memo To File” dated July 10, 2002, that he said he
prepared in regard to his dealings with Comer on the settlement agreement. This memo contains date-
specific references to a number of events and conversations that the SOL staff attorney had with Comer
and other SOL and BLM staff during the time period when the drafting and negotiating of the settlement
agreement occurred.

In this “Memo To File,” the SOL staff attorney referenced a letter that Robbins’ counsel sent to Comer
on May 13, 2002. In this letter, Robbins’ attorney described all of the outstanding Robbins’ matters and
explained what she wanted in the way of a settlement. The “Memo To File” further reflected that Comer
wanted the SOL staff attorney to structure a settlement agreement incorporating all of the discussion
points raised in Robbins’ attorney’s letter. In drafting the agreement, the SOL staff attorney stated that
he sent the first draft (what he considered to be the first draft) to Comer on or about May 28, 2002.
According to the SOL staff attorney, prior to a June 5, 2002 meeting between him and Comer, Comer
telephoned him and suggested changes, which he incorporated into a second draft of the agreement. The
SOL staff attorney said he was unaware of whether or not Comer shared the initial drafts of the
settlement agreement with Robbins’ attorney.

The SOL staff attorney stated that because he prepared the first draft of the settlement agreement and
since there was no e-mail communication between the SOL offices at the time (because of the court
imposed limits under the Cobell Litigation), he and Comer decided that he (the SOL staff attorney)
would keep the “master” copy of the agreement on his (the SOL staff attorney’s) computer. According
to the SOL staff attorney, throughout the process of drafting this agreement, he was the “vehicle for
incorporating suggested changes into the document.”

The Assistant U.S. Attorney (AUSA), Cheyenne, Wyoming, stated that in approximately August 1998,
he was assigned to represent the BLM employees who are named in the Bivens/RICO lawsuit filed in
August 1998 by Robbins. According to the AUSA, during approximately May/June 2002, he heard from
someone, whose identity he could not recall, that some sort of document was being contemplated or
prepared by DOI regarding the Robbins matter.

The AUSA stated that on July 17, 2002, he received a fax copy of the proposed settlement agreement
from Comer. Consequently, in response to Comer’s request, he said he documented his concerns about
this draft agreement in a four-page letter to the SOL staff attorney, dated July 18, 2002.

The AUSA expressed concerns in his July 18th letter to the SOL staff attorney that the agreement
purported to establish an “informal dispute resolution” procedure that appeared to be unique for only one
BLM permittee – Harvey Frank Robbins. The AUSA stated that he questioned what basis or authority
existed for DOI to establish what was, in effect, a unique “appeal” path directly to the BLM Director.
The AUSA stated in this letter that it was apparent that this process must be utilized before any type of
official trespass notice or administrative citation is issued. The AUSA specifically expressed concern
                                                        9
that “this process clearly involves the Office of the Director of the BLM in Washington, D.C., in micro-
managing the Wyoming Bureau of Land Management with regard to one permittee” and that “the process
also transfers to the Office of the Director, Bureau of Land Management, all decisions on all Robbins’
violations of BLM regulations.” The AUSA said the process would prohibit Wyoming BLM field
offices from making any final decisions and issuing any administrative notice – or taking legal action –
with regard to any of Robbins’ violations.

The AUSA also expressed concern that the agreement directly contradicts the Interior Board of Land
Appeals decision dated May 20, 1999, which recognized BLM has a limited administrative right of
access across Robbins’ private property to access and manage public land. He stated that a prior notice
request, as contained in the draft agreement, is simply a mechanism for Robbins to control access by the
BLM to the public land that BLM is statutorily mandated to manage.

The AUSA stated that the practical effect of a requirement that BLM assign a new range conservationist
to administer Robbins’ permits would give Robbins some authority over which range conservationist
enforces compliance with Robbins permits and also clearly meddles with personnel decisions by BLM, in
particular the WFO.

According to the AUSA, shortly after his issuance of this July 18, 2002 letter to an SOL staff attorney, he
received a very “antagonistic, unpleasant, in my face” telephone call from Comer. The AUSA said that
during this telephone call, Comer told him that he was unhappy about the critical comments he (the
AUSA) made in regard to the first settlement draft and instructed the AUSA to send any future comments
he might have about the proposed BLM/Robbins settlement directly to the SOL staff attorney.
According to the AUSA, this telephone call with Comer lasted approximately one minute and it was
readily apparent from Comer’s tone that Comer was agitated by the AUSA’s criticisms and concerns
about the proposed draft settlement.

According to the SOL staff attorney, Comer and Robbins’ attorney negotiated certain changes to the draft
agreement. The SOL staff attorney stated that Comer called or sent him faxes detailing the changes, and
he (the SOL staff attorney) incorporated the changes into a master document. The SOL staff attorney
stated that Comer conducted all of the settlement negotiations with Robbins’ attorney and that he (the
SOL staff attorney) and the members of his staff were never privy to any of these negotiations. He
advised that he and members of his staff provided comments to Comer concerning the settlement
agreement but Comer was always the final arbiter of any changes that were ultimately made. The SOL
staff attorney stated that for these reasons, he did not substantively respond to the AUSA’s July 18, 2002
letter.

According to the SOL staff attorney, he sent a letter dated August 20, 2002, to the AUSA, inviting his
comments to a revised version of a draft settlement that was appended to the letter.

The AUSA responded to the SOL staff attorney’s August 20th letter with a three-page letter dated August
28, 2002, in which he provided the SOL staff attorney with the U.S. Attorney’s Office’s comments about
the revised draft settlement. The AUSA also sent copies of his August 28, 2002 letter to Comer; Alan
Kesterke, BLM, Associate State Director, Wyoming; a BLM Manager, WFO; and two DOJ attorneys,
Environment and Natural Resources Division.

In this letter, the AUSA noted several specific concerns about the revised draft settlement agreement.
Some of these concerns are summarized below:


                                                    10
       •   The effect that such an agreement would have on the U.S Attorney’s Office’s ability to
           represent BLM in either criminal or civil matters.
       •   The U.S Attorney’s Office’s concern that this revised, draft agreement contained a provision
           that the BLM Wyoming Offices could not cite Robbins without the BLM Director’s approval,
           yet the BLM Wyoming Offices could immediately cite another permittee.
       •   The U.S Attorney’s Office’s concern that the execution of such an agreement by BLM would
           make citing Robbins for potential future violations more difficult than citing other BLM
           permittees for identical conduct.
       •   The Wyoming U.S Attorney’s Office’s position is that this proposed settlement is clearly not
           the vehicle to reach the goal of settling all administrative matters pending between Robbins
           and the BLM.

The SOL staff attorney confirmed that the AUSA sent the August 28, 2002 letter containing the AUSA’s
comments concerning the proposed settlement agreement. The SOL staff attorney said he noticed that
Comer was copied on this letter, so he did not send a copy to Comer. According to the SOL staff
attorney, as with the previous letter from the AUSA dated July 18, 2002, he did not respond to the AUSA
and waited for Comer to take whatever action he deemed appropriate.

The SOL staff attorney said he did not discuss any of the AUSA’s expressed concerns and objections
about the proposed settlement agreement with Comer and reiterated that he did not negotiate any of the
terms of the agreement. According to the SOL staff attorney, it seemed fairly evident that irrespective of
the AUSA’s concerns, ultimately, the settlement agreement was going to be executed. The SOL staff
attorney said he did not want to be perceived as an “obstructionist” and therefore, he did not raise the
concerns expressed in the two letters, prepared and sent by the AUSA, with Comer nor did he press the
issue.

The AUSA stated that when he reviewed a subsequent revised version of the proposed settlement faxed
to him by Comer on November 1, 2002, it became apparent that Comer and the SOL staff attorney chose
not to address any of the major concerns he raised in his two letters.

An Administrative Law Judge (ALJ), Office of Hearings and Appeals, was interviewed regarding his
knowledge of the settlement agreement between BLM and Robbins and his decision to stay several
pending grazing and trespass-related violations against Robbins that were on his court docket. According
to the ALJ, he had 10 BLM grazing-related/trespass matters against Robbins pending, three of which
were transferred to his docket from the ALJ’s docket in Salt Lake City, Utah. All of the Robbins cases
before the ALJ were appeals Robbins filed in response to citations he was issued by BLM for grazing-
related and trespass violations. The ALJ stated that the only matter before him with respect to these
cases that required his action was a previous ruling he made to either grant or deny motions before him
that requested he stay these ten Robbins’ cases for a period of 24 months.

The ALJ stated that his role as ALJ never required him to rule on the merits of the settlement agreement
between BLM and Robbins. On March 24, 2003, the ALJ ordered that the pending BLM violations
against Robbins be stayed until January 2005, and his order required that Robbins’ counsel and the DOI
SOL in Lakewood, Colorado, provide him (the ALJ) with a status report every 6 months.

The ALJ stated that based on his initial review of the settlement agreement, he had several serious
concerns about this agreement, some of which are summarized as follows:



                                                    11
      •   The agreement referenced three pending Robbins’ cases in Salt Lake City, Utah, that the ALJ
          had no jurisdiction over.
      •   DOJ was named in the agreement yet there was no signature on the agreement by any DOJ
          official, even though the agreement was signed by a representative from the DOI SOL.
      •   The ALJ stressed that DOJ, not the SOL, is counsel for the government.
      •   The agreement referenced DOJ’s dismissal of FOIA cases both with and without prejudice.
      •   The agreement created an “informal dispute resolution” procedure that clearly placed all
          matters requiring dispute resolution between the BLM and Robbins into the BLM Director’s
          Office.
      •   This “informal dispute resolution” provision of the agreement created an alternative dispute
          resolution mechanism that was not found in Title 5 of the U.S.C. that specifically establishes
          available alternative dispute resolution mechanisms.
      •   The agreement addressed issues regarding allotments, permits, and rights of way that were not
          before the ALJ.
      •   The agreement did not contain a notice provision to notify adjoining ranchers and the State of
          Wyoming of the agreement.

The ALJ stated that during the course of the pre-trial conferences he held in this matter, he was advised
by both Robbins’ attorney and DOI SOL staff attorneys that the BLM Deputy Director was in agreement
with this settlement. According to a pre-trial teleconference note in the ALJ’s file, on March 24, 2003,
Robbins’ attorney said BLM Deputy Director Fran Cherry signed the agreement and BLM Director
Clarke was fully briefed in regard to the agreement.

The ALJ stated that he was completely unaware of DOJ having any concerns about the agreement
between BLM and Robbins and that any such concerns about the agreement should have been
communicated to him by the DOI SOL and Robbins’ counsel. The ALJ stated that if the DOI SOL and
Robbins’ attorney were aware of DOJ’s concerns, he considers their failure to notify him of this to be
both a breach of ethical conduct and a violation of the procedures that govern the proceeding.

Throughout the interview with the ALJ, he described his concern over not being made aware of DOJ’s
position on the agreement by DOI SOL or Robbins’ attorney as very “disturbing,” “disappointing,” and
“shocking.” According to the ALJ, had he been made aware of DOJ’s concerns about the agreement, he
would have insisted that DOJ attorneys, with the concerns about the agreement, participate in a
teleconference with himself, an attorney from the DOI SOL, and Robbins’ attorney. The ALJ said that
such a teleconference would have enabled him to be made aware of DOJ’s concerns and would have
provided him the opportunity to discuss these concerns with DOI SOL and Robbins’ attorney.

The ALJ stated there is a continuing obligation on the part of counsel to keep him informed on matters
relevant to the proceeding such as, in this case, notifying the ALJ of DOJ’s concerns about the settlement
agreement between BLM and Robbins. To the ALJ’s knowledge, DOJ’s only involvement with matters
concerning this settlement agreement was limited to issues pertaining to a FOIA request regarding a
matter in Washington, D.C., that had been resolved.

When interviewed about this issue, the SOL staff attorney stated that one of the provisions of the
settlement agreement provided that the parties seek stays of the cases that were then pending. The bulk
of these cases were administrative appeals assigned to the ALJ. The SOL staff attorney stated that
because these cases were all being handled by the Rocky Mountain Regional Office, together with
Robbins’ attorney, he (the SOL staff attorney) and his staff prepared and submitted appropriate motions.


                                                   12
The SOL staff attorney stated that he did not think that anyone ever thought it was necessary to inform
the ALJ of DOJ’s concerns about the agreement. The SOL staff attorney said he “certainly did not” think
it was necessary to contact the ALJ. He said that although he was aware of the AUSA’s concerns, he felt
that there was nothing he could do about them.

The SOL staff attorney said the U.S. Attorney’s Office in Wyoming was not a party to or a signatory of
the settlement agreement. He said he never thought to further question DOJ or raise DOJ’s concerns
with the ALJ. He said he assumed that the AUSA’s concerns were a moot issue when the parties
executed the settlement agreement.

According to Kesterke, from August 2002 until January 2003, during the time period when the settlement
agreement was being drafted, he served as the Acting State Director for the BLM WSO. Kesterke
described a BLM memorandum dated September 6, 2002, prepared by a BLM Manager, WFO, which he
signed and forwarded to the SOL staff attorney. The memorandum contained five pages of written
comments and concerns that the WFO and the WSO had in regard to the proposed draft settlement
agreement dated August 20, 2002.

According to the BLM WFO Manager, on September 6, 2002, the Wyoming BLM submitted formal
comments to the SOL staff attorney in a five-page memorandum that detailed legal, policy, and
procedural concerns. He stated that no response was ever received from the SOL in regard to BLM’s
concerns. He stated that the SOL staff attorney confirmed that he and Comer received a copy of the
concerns about the agreement and that Comer provided a copy of the memorandum outlining these
concerns to Cherry. Some of the concerns expressed included the following:

   1. Concurrence with all points, issues, and concerns previously expressed by DOJ letters dated July
      18, 2002 and August 28, 2002.
   2. Agreement significantly deviates from the regulatory processes established under both the Taylor
      Grazing Act and the Federal Land Policy and Management Act.
   3. Agreement alters 43 C.F.R. § 4140.1 (b) (1) and BLM policy (Bureau manual H-4150-1) in
      redefining the definition of trespass and the various categories of trespass.
   4. Agreement establishes a new appeals process for Robbins that is different from the established
      appeals process and requires that process to be followed before any resource management or
      administrative action can be pursued.
   5. Concerns that Robbins would be treated differently from other permittees.
   6. Agreement establishes a process where decisions involving Robbins would be made in the BLM
      Washington, D.C., Office.

Kesterke said that it became apparent from his review of a revised draft version of the agreement that
Comer and the SOL staff attorney “had predominantly ignored the vast majority of the concerns outlined
by the BLM WFO and the WSO staff” in the September 6, 2002 memorandum by the WFO Manager.
Kesterke stated that Comer and the SOL staff attorney had not incorporated the vast majority of these
concerns into the settlement agreement. Kesterke stated that he never received any feedback from Comer
or the SOL staff attorney as to why the majority of BLM’s concerns about the draft versions of the
settlement agreement were not incorporated into the final settlement agreement.

When interviewed about this matter, a BLM Manager, Medford District Office, stated that sometime
during approximately April/May 2002, Cherry provided him with a proposed draft settlement agreement
to review because of his knowledge and expertise with many of the BLM technical and regulatory
matters that were being addressed in the agreement. According to the BLM Manager, on several
occasions, as revised versions of this settlement agreement were generated and provided to him by
                                                     13
Comer, he provided Comer with his written comments and suggested changes with regard to BLM’s
technical and regulatory matters.

The BLM Manager stated that neither Comer nor anyone else made him aware of any concerns that DOJ
might have expressed about the settlement agreement prior to its finalization. The BLM Manager stated
that because he was reviewing and revising this agreement on technical and regulatory issues, it would
have been prudent for him to have been made aware of DOJ’s concerns. He stated that having the
benefit of DOJ’s concerns about the agreement would have afforded him the opportunity to have made
more informed technical and regulatory recommendations.

According to Cherry, he was not aware that DOJ had expressed significant concerns about the draft
agreement nor did he know that DOJ documented these concerns in two letters provided to Comer and
the SOL staff attorney. Cherry commented that if Comer and the SOL staff attorney were aware that
DOJ had concerns about the agreement, one of them should have advised him of DOJ’s concerns based
on the fact that the SOL serves as the office responsible for serving the legal needs of BLM. Cherry also
commented that if he had been made aware that DOJ expressed concerns about the settlement agreement
prior to its finalization, he might not have signed the agreement depending on the nature and extent of
DOJ’s concerns.

The BLM WFO Manager stated he had participated in a telephone conference call on July 16, 2002, with
the SOL staff attorney and Kesterke during which the SOL staff attorney said he wanted to “fess up”
because he had been “lying to us” for months claiming no knowledge of a settlement agreement which
the SOL staff attorney claimed Comer directed him to draft sometime before Memorial Day. The BLM
WFO Manager stated that the SOL staff attorney told him and Kesterke that he had been directed by
Comer not to share the agreement draft with anyone and that Comer had derided the SOL staff attorney
and directed him not to even share information found in the agreement with his direct supervisor.
According to the BLM WFO Manager, the SOL staff attorney told him and Kesterke that the Inspector
General had made contact with his supervisor, raising questions about the agreement, and the SOL staff
attorney said he would probably be the “scape goat” in the affair and that his relationship with Comer
was shot.

When questioned about the pre-agreement events of August 20, 2002, the WFO Manager stated the
following:

       [The SOL staff attorney] told me that he had sent the draft agreement to Robbins’
       attorneys for comment prior to asking or receiving comments from BLM. [The SOL staff
       attorney] told me that this was done under orders from Bob Comer. [The SOL staff
       attorney] said that he would have preferred to get BLM’s comments first, but that Comer
       had wanted to get the draft agreement to Robbins’ counsel ASAP.

The BLM WFO Manager stated that on September 5, 2002, the SOL staff attorney told him that Comer
had said not many changes were going to be made to the agreement draft dated July 17, 2002.

Kesterke stated that at some point during late 2002, during the final stages of the settlement agreement
between BLM and Robbins, he participated in a telephone call with the SOL staff attorney, who admitted
during this call that he was the individual at the SOL, not Comer, who prepared the initial draft version of
the settlement agreement. Kesterke stated that during this call, the SOL staff attorney also apologized to
him for lying in an attempt to conceal the depth of his knowledge and involvement in the settlement
agreement process.

                                                    14
                                  Post-Settlement Agreement Events

Communications relative to the post-settlement agreement phase consisted of an overwhelming amount
of documentation. The documentation included e-mails, records to the file, letters, individual notes,
internal and external memorandums, and minutes of meetings. The following chronicles some of the
events that occurred after the settlement agreement became effective.

A January 9, 2003, meeting to discuss a pending settlement agreement between the BLM and Robbins
was memorialized in a memorandum dated February 4, 2003, from a BLM WFO Senior Manager to a
BLM WFO Manager, titled, “Global Settlement Agreement Meeting; Robbins; January 9, 2003.” The
memorandum reflected that the purpose of the meeting on January 9, 2003, was to discuss the agreement,
to answer any questions and concerns, to discuss various issues, and to verbally establish implementation
procedures regarding the agreement since no formal, written implementation guidance would be provided
to the WFO once the agreement was made effective. The memorandum indicated that during the meeting
both the WFO Manager and Kesterke made it clear that they would have never signed the agreement.
Further, the memorandum outlined the various issues discussed and procedures that would be
implemented upon execution of the agreement.

According to the BLM WFO Senior Manager who wrote the February 4 memo, the “driving force”
behind the Robbins agreement was Cherry and Comer and he based his beliefs on various conversations he
had between the WFO and WSO.

In early January 2003, the WFO staff requested, as they had on more than one occasion, that Kesterke
provide written direction from the Washington Headquarters’ Office, the WSO, or the Regional SOL for
the agreement’s intent and implementation. Kesterke stated that during the meeting on January 9, 2003,
he made it clear to the WFO staff that no such written guidance regarding the intent and implementation
of the settlement agreement would be provided. Kesterke said he was concerned that creating any
written instructions regarding the implementation of the agreement might create a whole new series of
additional legal questions.

During this same meeting, Kesterke informed the WFO staff that the regulations found in 43 C.F.R. Part
4100 were to be followed, to the extent possible, and that BLM was to fully implement the language of
the agreement. He said that if the agreement were to fail, it would fail based on Robbins’ performance,
not BLM’s performance. Kesterke stated that he also directed that the BLM WFO should strive to ensure
that the implementation of the agreement remains at the WFO and WSO level.

According to Kesterke, during March 2003, several issues arose regarding timely and efficient
correspondence, as well as continued livestock trespass events by Robbins. In accordance with the
settlement agreement, representatives of the WSO and WFO staff, including Kesterke, a BLM WFO
Senior Manager, and two WFO staff members met with Robbins and his wife on March 28, 2003, in the
WSO. The purpose of this meeting was to coordinate implementation of the settlement agreement with
Robbins.

Kesterke stated that at this meeting on March 28, 2003, he told Robbins that he would consider taking the
necessary steps to remove the WFO Manager from the delegated line of authority in dealing with any
issues regarding Robbins. Kesterke said he decided to remove the WFO Manager from the day-to-day
administration of issues relating to the Robbins agreement; however, Kesterke said he made it clear that
the BLM WFO Manager would still function as the field manager for the WFO. He said his decision to
                                                     15
remove him from issues related to Robbins was based upon the fact that it seemed apparent to Kesterke
that a very antagonistic relationship had developed between the WFO Manager and Robbins. Kesterke
said that based on his knowledge of the relationship between the two, he determined that in the interest of
having the settlement agreement successfully implemented, it was in the best interest of all concerned to
remove the WFO Manager from the administration of any issues relating to the agreement.

A BLM employee, WFO, stated that on April 14, 2003, at the request of the SOL staff attorney, he
prepared a memorandum to the SOL staff attorney about the WFO’s documentation regarding Robbins’
continuous, ongoing violations of both the Code of Federal Regulations (CFR) and the agreement. The
employee stated that he never received any response from the SOL resulting from his reporting these
violations and there was never any follow-up action taken as a result of this correspondence.

The BLM WFO employee stated that during the spring and summer of 2003, Robbins continued to
violate the settlement agreement and the CFR for livestock trespass and mechanical alteration of four
cattle guards. He said many of the unauthorized use reports of Robbins’ cattle have been reported to the
WFO by Robbins’ neighboring ranchers. The employee said he and the WFO Manager created
conversation records and e-mails for informing Kesterke of these violations by Robbins yet no response
to the information was provided by Kesterke.

Kesterke confirmed that during the spring and summer of 2003, he received e-mails and telephone calls
from WFO staff advising him that Robbins continued to have livestock trespass violations and had
mechanically altered four cattle guards. He said the communications from the WFO generally indicated
that Robbins had been contacted about what the specific issues were. He said he advised the BLM WFO
Manger, a BLM WFO Senior Manager, and the BLM WFO employee that they had not followed the
agreement provision requiring informal dispute resolution to address any post-settlement violations by
Robbins.

According to Kesterke, on or about July 18, 2003, he placed a telephone call to the BLM WFO Manager
and expressed being upset about some of the documentation created by the WFO employee. Kesterke
stated that it was his opinion that the WFO employee’s creation of documentation relating to his
interpretation of legal issues and other aspects of the agreement was inappropriate and likely to cause
BLM future difficulty in the legal issues surrounding the settlement agreement. Kesterke stated that
during a meeting on July 23, 2003, he informed the WFO staff that he would consider taking corrective
action for insubordination or other adverse personnel actions if the WFO did not follow his directions to
stop creating problems by inappropriately documenting the administrative record with unqualified and
erroneous interpretations of the legal aspects of the agreement and the C.F.R.

Kesterke stated that he informed the BLM WFO Manager and the WFO staff that their e-mails and
telephone calls advising him of Robbins’ alleged violations were not understood as a request to invoke
informal dispute resolution. According to Kesterke, BLM could be accused of violating the agreement
by not following the process outlined for the informal dispute resolution. Therefore, according to
Kesterke, he requested the WFO staff prepare a memorandum detailing all of the alleged violations by
Robbins and to forward the memorandum to him (Kesterke). He said the WFO prepared such a
memorandum detailing all of Robbins’ alleged post-settlement violations, and based on that material, he
recommended to the BLM Wyoming State Director and the SOL in a September 3, 2003 memorandum
that the informal dispute resolution provision of the agreement be invoked. He stated that the September
3, 2003 memorandum was also forwarded to the WSO.

Subsequent to the effective date of the settlement agreement, a review of the BLM/Robbins situation was
conducted at the request of Rebecca Watson, Assistant Secretary, Land and Minerals Management, on
                                                     16
August 13, 2003. Watson informed Clarke and Bennett that because of concerns Watson was hearing
from BLM employees, the media, and the public concerning the settlement agreement with Robbins, she
was asking a BLM Manager in Montana and a special assistant in Montana to look into the situation.
Watson also advised Clarke that she had asked staff from the Solicitor’s Office, not involved in the
original settlement agreement, to review allegations raised by interest groups concerning the legal
support for the settlement provisions.

During a July 23, 2003, meeting, Kesterke requested that a BLM WFO employee provide a summary of
documented monitoring efforts found within the WFO administrative records. The BLM WFO employee
subsequently produced an August 4, 2003, memorandum and an addendum dated August 7, 2003, both
titled, “Identification of Worland Field Office monitoring efforts regarding the Settlement Agreement
with Frank Robbins.” The memo indicated that "… further discussions may be warranted and the
potential invoking of the Informal Dispute Resolution process as identified in paragraph 3 (page 5 of 15)
of the Settlement Agreement, dated January 15, 2003 with Mr. Robbins." An updated addendum to the
August 4 and August 7, 2003, memoranda dated October 7, 2003, was sent to a BLM employee in
Wyoming from the BLM WFO employee reporting additional monitoring efforts.

On September 2, 2003, Watson directed Clarke to: 1) determine whether the terms of the settlement were
being implemented and whether Robbins' activities were consistent with other applicable legal standards;
2) direct a BLM Manager to promptly analyze the events that had occurred after the signing of the
Robbins settle agreement; and 3) provide immediate direction on any administrative actions that need to
occur. Watson requested that a BLM Manager focus on compliance with the settlement agreement and
post settlement compliance with grazing rules and other permit requirements. Watson also directed
Cherry, Kesterke, and BLM employees involved in the Bivens/RICO actions to be recused from matters
involving Robbins.

Kesterke’s September 3, 2003, memorandum to the Wyoming State Director and the Regional Solicitor
in Lakewood, Colorado, titled, “Implementation of the Robbins' Settlement Agreement” provided a brief
summary of the implementation of the Robbins' settlement agreement from early January to September 3,
2003. The review of the settlement agreement, forwarded by the Associate State Director, determined
the following:

   •   The Worland Office had been very diligent in notifying Robbins of issues and had gone to
       "extraordinary lengths to work in good faith with the agreement."
   •   Robbins may have received less scrutiny and more favorable treatment due to the sensitivity of
       agreement implementation.
   •   Although relations between BLM and Robbins have not been confrontational, the Associate State
       Director believed action had occurred which demonstrated a strong commitment by BLM to
       implement the agreement without a corresponding commitment to meeting agreement stipulations
       by Robbins.
   •   Kesterke recommended that BLM invoke the informal dispute resolution process outlined in the
       agreement and critically review the future of the settlement agreement.

On September 10, 2003, a draft internal working document was prepared by a BLM employee for a BLM
Manager to brief Watson regarding the settlement agreement. The briefing reported findings based on an
analysis of events and provided direction on administrative action that needed to occur. The briefing
concluded with two options to resolve the various issues involving Robbins by using the Informal
Dispute Resolution process as indicated in the settlement agreement.


                                                   17
On October 2, 2003, Clarke sent a memorandum to Bob Bennett, BLM Wyoming State Director, titled,
“Findings of September 9-10-Review.” The review was in response to allegations that Robbins was not
complying with the settlement agreement and was violating grazing regulations. Three classes of
potential violations were identified:

   •   Robbins allowed livestock to graze on public land prior to paying a grazing fee, which is a
       violation of the terms and conditions of his permit.
   •   Robbins’ livestock grazed at a different time than that authorized in the permit.
   •   Robbins grazed animals on neighboring allotments for which his livestock have no authorization.

Based on this review, the team found that some of these situations had not been discussed with Robbins
like is normally done by BLM. Clark directed that within one week of this memo, the manager of the
BLM WFO was to contact Robbins and notify him, in writing, of the alleged violations of the regulations
and of the agreement.

On December 4, 2003, a BLM Manager forwarded a memorandum to Bennett titled, “Guidance on
Implementation of The Settlement Agreement from [a BLM employee]”. The memorandum was sent to
Bennett because of numerous concerns raised in the BLM employee’s memorandum dated November 20,
2003. The employee’s concerns were regarding the memo’s defined direction in implementing the
settlement agreement. The Implementation of the Agreement section of the agreement stated that laws
and regulations supersede the agreement. The December 4, 2003, memorandum further reported,
“However, a cursory review of the administrative record reveals preliminary comments by the U.S.
Attorney’s Office (dated July 18, 2003 and August 28, 2003; enclosed) as well as a memorandum from
the Worland Field Manager through the Wyoming State Director to the Regional Solicitor, Denver,
(dated September 6, 2003; enclosed) which specifically identifies that a majority of the Agreement
violates laws and regulations.” This December 4, 2003, memorandum requests specific written
directions from the Director or the Director’s designee in response to the November 20, 2003
memorandum.

On January 23, 2004, a BLM WFO Manager forwarded a memorandum to Bennett titled, “Informal
Dispute Resolution for Frank Robbins.” This memorandum summarized a meeting that was held on
January 21, 2004, with Robbins, a BLM WSO Manager, and the BLM WFO Manager to discuss issues
surrounding two notices of trespass. According to the memo, the meeting concluded with no resolution
of the issues. Robbins was not willing to consider any resolution but for the BLM to drop the notices of
trespass so the action would not be reflected in his administrative file.

On January 30, 2004, a BLM Manager issued a letter to Robbins stating that the settlement agreement
between Robbins and BLM was now void pursuant to paragraph six of the agreement. The paragraph six
provisions voiding the agreement were triggered by what the BLM Manager described as the formal
administrative proceeding initiated on January 28, 2004. This letter concluded with notice to Robbins
that BLM was considering its options regarding the proceedings listed in Paragraph 1 of the settlement
agreement.

                                       Conduct of Robert Comer

While the initial and primary focus of this investigation centered on the issues related to the settlement
agreement, our investigation developed specific information that raised concerns about the conduct of
Robert Comer and his participation in the settlement process in his former position as Associate Solicitor,
Division of Land and Water.

                                                    18
During our interview with Watson, she expressed her displeasure with Comer’s failure in not informing
her that her office was specifically referenced in the settlement agreement. Watson provided a copy of a
handwritten apology note that she received from Comer dated August 18, 2003, where he wrote, in part:

       I want to apologize to you for failing to brief you on the Robbins settlement, and
       particularly for not speaking with you regarding the paragraph concerning the potential
       for your office to become involved in a land exchange. I clearly should have spoken with
       you and I take full responsibility.

E-mail messages between William G. Myers III, former DOI Solicitor, [Myers served as DOI Solicitor
from July 23, 2001 through October 10, 2003] and Comer during early July 2003, following the
execution of the settlement agreement, indicate that Comer misrepresented the facts of this matter in his
e-mail to Myers. The e-mails exchanged between Myers and Comer are referenced below:

On July 3, 2003, Myers sent Comer the following e-mail:

       The press reports indicate that Robbins has a RICO suit pending against BLM
       employees that was not dismissed as part of the settlement. The imlication (sic)
       or allegation is that we did not protect our own employees in the course of the
       settlement. Is that correct? If so, please explain why that piece of litigation was
       not included in the settlement. Thanks.

On July 7, 2003, Comer responded to Myers’ e-mail with the following e-mail:

       No, it is not correct, and actually somewhat ironic. As the settlement was
       intended to improve relationships on a going forward basis, I was quite insistent
       with both Robbins and [the AUSA], that we settle the RICO portion of the case.
       Fran Cherry was ok with the idea, but neither the AUSA or Robbins were
       agreeable. Although I believe Robbins wouls (sic) have settled, the AUSA was
       particularly blustery about the issue, and his boss concurred. As a result, the
       RICO claims were not settled. Everyone wanted to have their positions
       vindicated. Bob

When the AUSA reviewed these two e-mails, he stated that by entering into the settlement agreement
with Robbins and not requiring Robbins to dismiss his pending RICO lawsuit as part of the agreement,
DOI did not protect the interests of the past and present BLM employees who are named defendants in a
lawsuit with potential damages as high as $12 million dollars. The AUSA further stated that the
implication that BLM did not protect its own employees in the course of the settlement is entirely correct
in that DOI entered into a settlement agreement with Robbins and failed to make dismissal of Robbins’
pending Bivens/RICO lawsuit a condition of the agreement.

The AUSA described Comer’s e-mail responding to Myers’ concerns as:

       . . . an absolute falsehood which completely misrepresents my position with respect to the
       dismissal of Robbins pending Bivens / RICO lawsuit. Comer’s claim in this e-mail that
       he (Comer) was quite insistent with me that we settle the RICO portion of the case is also
       false.


                                                    19
According to the AUSA, Comer’s claim that a U.S. Attorney concurred with not wanting to have
Robbins’ pending RICO lawsuit dismissed is totally untrue.

The AUSA stated that Comer’s further claim in this e-mail that everyone wanted to have their positions
vindicated was not correct and that during a conversation with Comer, he told Comer that they believed
the defendants (BLM employees) had a “very viable defense” of Robbins’ lawsuit.

The AUSA said that Comer’s assertion in this e-mail to Myers that it was his [Comer’s] belief that
Robbins would have settled is totally inconsistent and contrary to what Comer and Cherry stated to both
the AUSA and a U.S. Attorney during a teleconference on October 21, 2002. According to the AUSA,
Comer began the telephone conference, which took place prior to the settlement agreement being
finalized, by downplaying and minimizing the concerns previously expressed by the AUSA about the
agreement. Comer’s comments precipitated a stern response from the U.S. Attorney, reminding Comer
that he (the U.S. Attorney) is the U.S. Attorney for the District of Wyoming.

The AUSA recalled that during this teleconference, Comer stated that he wanted to give Robbins a
second chance and the settlement would serve to accomplish this. The AUSA said his position was that
“the draft settlement should require Robbins to dismiss with prejudice the pending Bivens/RICO lawsuit
filed against the present and former BLM employees.” The AUSA stated that Cherry responded to this
suggestion by stating that when he had previously spoken with Robbins about the possibility of
dismissing his lawsuit, Robbins became agitated and told Cherry he would not dismiss his lawsuit
because he wanted to punish the BLM employees for what they did to him.

The AUSA stated that when the question of a possible dismissal without prejudice was raised by Comer
during this teleconference, DOJ’s response was that such a dismissal would require the consent of all
defendants and consideration would take some time since one defendant was in Alaska and one was in
Oregon. DOJ also stated its position, as counsel for the defendants, that they may not be able to
recommend accepting dismissal without prejudice because this left open the possibility of a future
lawsuit. According to the AUSA, Comer then admitted that he had not inquired of Robbins whether a
dismissal without prejudice would be acceptable but planned to have such a discussion that afternoon
with Robbins’ counsel. DOJ had not spoken to Comer since the October 21st conversation.

The AUSA provided the OIG with a written response concerning the content of Comer’s e-mail to Myers
with respect to the dismissal of Robbins’ lawsuit, which included the following:

   •   An e-mail from the AUSA to the U.S. Attorney dated November 7, 2002, referencing the
       agreement received on November 7, 2002, stating in part … “This agreement does not include
       any reference to the Bivens/RICO action, nor does it contain a signature line for our office. The
       agreement is fraught with problems ….”

   •   An e-mail dated October 28, 2002, from the AUSA to a DOJ attorney, Natural Resources
       Division, with a copy sent to the U.S. Attorney and another DOJ attorney, Environmental and
       Natural Resources Division, referencing a conversation the AUSA and the U.S. Attorney had
       with Comer and Cherry on October 21, 2002, regarding the new, revised settlement agreement.
       This e-mail reads, in part, as follows:

              We [the AUSA and the U.S. Attorney] reiterated our concerns with regard to the
              overall agreement, and suggested we would reconsider signing off on only the
              issue of the Bivens / RICO litigation if Robbins would agree to dismiss with
              prejudice. Comer then admitted he had not gotten any agreement from Robbins
                                                 20
               on even dismissal without prejudice, and was going to talk with Robbins’
               attorney the same day as our call, Monday, October 21, 2002. We have heard
               nothing from Comer or anyone else since then. It appears very doubtful, based on
               comments made by Fran Cherry regarding a conversation he had with Robbins,
               the Bivens / RICO case will be dismissed.

Contemporaneous notes made by the AUSA on October 21, 2002, during his teleconference with the
U.S. Attorney, Comer, and Cherry read, in part, “Bivens/RICO needs to be dismissed ”… “Fran Cherry
discussed Bivens w/ Robbins did not agree to settlement.”

The AUSA also wrote that it was “somewhat outrageous and ludicrous for Comer or anyone to suggest I
would oppose a dismissal, particularly with prejudice, of Robbins’ Bivens/RICO lawsuit against present
and past BLM employees.” The AUSA further wrote that “I would, as would any attorney defending a
client, obviously seriously consider any possible scenario to have Robbins dismiss his twelve million
dollar lawsuit….”

Finally, the AUSA wrote that “the July 7, 2003, e-mail from Comer to Myers noted above appears to be a
complete misrepresentation to Myers of the true facts and reasons why DOI did not require Robbins, as
part of the settlement agreement, to dismiss his Bivens/RICO lawsuit….”

During our interview of the U.S. Attorney, he commented that if the July 2003 e-mail exchange was
referring to the October 21, 2002, telephone conversation he had with the AUSA, Comer, and Cherry,
and if Comer intended to suggest that DOJ did not want the RICO claim dismissed, Comer was not
accurate. The U.S. Attorney said he qualified his statement because while Myers inquired about a
dismissal, Comer used the word “settlement” rather than dismissal. The U.S. Attorney assumed that
Comer meant to answer Myers’ question directly and was using the word “settlement” to mean the
equivalent of a dismissal. The U.S. Attorney said that if this was not so, he wished to make clear that the
defendants in the Bivens/RICO action did not want to settle in the sense that they would have to admit
wrongdoing, which would result in Robbins receiving some compensation for damages. While the U.S.
Attorney suggested it was true that DOJ did not want the RICO matter stayed for a period of time, the
U.S. Attorney stated it was not true that DOJ did not want the matter dismissed.

The U.S. Attorney also stated that it seems incongruous for Comer to say that Robbins was not agreeable
to a settlement but that Comer believes Robbins would have settled. The U.S. Attorney further stated
that it was odd that Comer claims he was “quite insistent” the matter be settled, and yet none of the
settlement drafts DOJ received required that the RICO action be dismissed.

The U.S. Attorney also stated that Comer is wrong if he intended to suggest through this e-mail exchange
that Comer wanted the RICO matter dismissed and that Robbins would have agreed but that it was not
dismissed because he (the U.S. Attorney) and the AUSA would not agree. The U.S. Attorney noted that
in examining the signed final agreement, the Wyoming U.S. Attorney’s Office was not a party to the
agreement. Regardless, he said he would not have signed the agreement because it was not acceptable.

When Myers was interviewed about his matter, he stated that he had no knowledge that DOJ had
expressed any concerns about the agreement to Comer or to any other SOL staff attorney. Myers stated
that he was unaware that on July 18, 2002, and August 28, 2002, the AUSA had documented his
concerns about the draft agreement in letters to the SOL staff attorney, which were copied to Comer.



                                                    21
Myers advised that he also had no knowledge of the AUSA ever receiving any type of notification from
Comer where Comer told the AUSA that he (Comer) was unhappy about the critical comments the
AUSA made in regard to the draft settlement agreement.

When asked about his July 3, 2003 e-mail to Comer, Myers stated that it was his understanding from
Comer’s July 7, 2003 e-mail response that Comer insisted that Robbins’ RICO lawsuit should be
dismissed as part of the settlement. Myers said that based on Comer’s assertion in his e-mail, the
dismissal of Robbins’ RICO lawsuit was not included in the settlement agreement because the AUSA
was defending the RICO lawsuit and wanted to go to trial rather than have Robbins dismiss his pending
RICO lawsuit – and that Robbins himself wanted to go to trial.

Myers recalled a follow-up conversation he had with Comer about these e-mails shortly after they were
transmitted in July 2003 in which Comer stated to him that the reason Robbins’ RICO lawsuit was not
included as part of the settlement agreement was based on objections from the AUSA. Myers further
recalled that during this follow-up conversation, Comer told him something to the effect that both
Robbins and the Wyoming U.S. Attorney’s Office believed they had a good strong case and that neither
party was inclined to dismiss or settle the RICO lawsuit.

Myers reiterated that had he been made aware of DOJ’s expressed concerns and criticisms about the
settlement agreement prior to its finalization, he would have expected Comer to take action to modify the
settlement agreement and incorporate and address these concerns.

When interviewed regarding this matter, Cherry stated that he had no recollection that Comer was
insistent on requiring Robbins to settle his RICO lawsuit against BLM employees.

Cherry stated that contrary to Comer’s assertion in his e-mail to Myers, Cherry knew Robbins clearly
was not willing to settle his RICO lawsuit because of the discussion he (Cherry) had with Robbins prior
to the execution of the settlement when Robbins stated that he wanted to punish the BLM employees
named in his lawsuit.

According to Cherry, Comer’s claim in his e-mail to Myers incorrectly reflects that Cherry was “OK”
with the idea of settling the RICO lawsuit. Cherry said he was an advocate of requiring Robbins to
dismiss his RICO lawsuit and not to settle it. He also stated that prior to signing this settlement
agreement in January 2003, Comer advised him to make the settlement work and that if the settlement
worked out, the Robbins RICO lawsuit against BLM employees would be taken care of in the future.

Kesterke stated that during the summer of 2003, after the final settlement agreement was executed,
various newspaper articles and other media sources ran stories about the settlement agreement and, in
particular, why BLM failed to require Robbins to dismiss his RICO lawsuit against BLM employees as a
condition of the agreement. During the same time period, Kesterke said he stopped by Comer’s office
and visited with him. Kesterke said that during this meeting with Comer, they discussed the subject of
the recent news articles. Kesterke said that Comer stated to him that the AUSA did not want Robbins’
RICO lawsuit dismissed as a condition of the settlement agreement. Kesterke also stated that during this
same conversation, Comer told him that he did not understand why the AUSA opposed requiring
Robbins to dismiss his RICO lawsuit as part of the settlement agreement.

Kesterke stated that based on prior conversations he had with the AUSA on this issue, Comer’s
statements that the AUSA did not want the RICO lawsuit dismissed seemed untrue. In fact, they
conflicted with what the AUSA had told Kesterke about why dismissal of Robbins’ Bivens/RICO lawsuit
was not included as part of the settlement agreement. According to Kesterke, the AUSA advised
                                                    22
Kesterke that he wanted to have the dismissal of the RICO lawsuit as part of the settlement agreement.
However, the AUSA indicated to Kesterke that he would agree to a dismissal of the RICO lawsuit with
prejudice and would oppose allowing dismissal of the RICO lawsuit to occur without prejudice.
Kesterke said he understood that by allowing the dismissal of the RICO lawsuit to occur without
prejudice, Robbins could reinstate the RICO lawsuit if the terms of the settlement were not followed
through to his satisfaction.

Kesterke also stated that shortly after his conversation with Comer about dismissal of Robbins’ RICO
lawsuit, he telephoned the AUSA and advised him of Comer’s statements claiming that he (the AUSA)
was opposed to having dismissal of Robbins’ lawsuit included as part of the settlement agreement.
Kesterke said that the AUSA emphatically denied that this was true.

Our investigation identified a draft Memorandum dated September 3, 2003, prepared by Comer titled
“Briefing Paper on the Robbins Settlement,” addressed to Myers and Clarke with copies to Watson; an
SOL staff attorney; the then Deputy Chief of Staff; and a special assistant to a BLM Manager in
Montana. In this briefing document, Comer details the events and explains the facts and circumstances
leading to the settlement agreement. In addition, the memorandum was intended to respond to questions
identified in a 60-day notice received from certain environmental preservation groups.

Comer’s briefing paper reflected that a substantial amount of review and oversight throughout the
Department was done because of the nature of the personalities involved in this grazing dispute. This
document states in part:

       As a general proposition, those closest to the dispute did not want to settle and strongly
       preferred to continue in the divisive, confrontational litigation mode. However, at no
       point did any of the reviewers identify any legal infirmities in the Settlement Agreement
       that were not resolved by staff attorneys in the regional and Washington D.C. offices of
       the Solicitor through detailed, issue-specific legal research.

Comer’s briefing paper also stated that it was his and Cherry’s view that dismissal of the RICO claims
was crucial to the success of an agreement such as this, where the primary goal was to improve the
working relationship between Robbins and BLM, and while Robbins preferred to maintain the litigation,
he would have dismissed it without prejudice had it been made a necessary term of settlement. This
memorandum also reflects that the AUSA refused to consider dismissal because he believed that the
defendants would maintain a significant victory over Robbins and that as a result there was no need to
settle. The memorandum further stated, “Thus, while a vigorous attempt to have this matter dismissed
was mounted, the individuals and representatives closest to the conflict were not so inclined.”

NOTE: After being shown a copy of Comer’s draft memorandum dated September 3, 2003, Myers
expressed having no recollection of receiving it. However, Myers stated that it was his understanding,
that Comer viewed the dismissal of Robbins’ RICO claims as crucial to the success of the agreement. A
review of the facsimile stamps on copies of Comer’s draft memorandum, dated September 3, 2003, show
that this document was faxed on September 3, 2003, to the respective DOI offices of Clarke, an SOL staff
attorney, and the Deputy Chief of Staff. Copies of this document were located in the official office files of
Clarke, an SOL staff attorney, and the Deputy Chief of Staff. Both Watson and Myers expressed no
recollection of ever receiving this document.

According to Comer, he described his role in the settlement agreement as that of being a neutral third
party where he served as the courier/go-between conveying information between the SOL and Robbins’

                                                     23
attorney. Comer was persistently vague and ambiguous when asked about how and at whose direction he
became involved in this settlement agreement process.

Comer stated that the initial draft of the settlement agreement was prepared by Robbins’ attorney. He
described the SOL staff attorney as a drafter of the settlement in its critical stage but stated that the SOL
staff attorney did not participate in the drafting process of this agreement until after the second or third
draft version of the settlement agreement was prepared. Comer stated that he did not recall the SOL staff
attorney ever objecting or expressing any concerns about drafting the settlement agreement. Comer
stated that if he had asked the SOL staff attorney not to share draft versions of the settlement agreement
with anyone, it would have been during the internal drafting process.

When questioned about why the SOL did not incorporate many of the suggestions and concerns
expressed by BLM and DOJ in the settlement, Comer stated that it was the responsibility of Cherry, who
signed the agreement on behalf of BLM, to consider and incorporate those concerns. During the
interview, it was pointed out to Comer that the extensive concerns expressed by DOJ in two letters dated
July 18, 2002, and August 28, 2002, were addressed to the SOL staff attorney. Comer was also shown
that BLM’s extensive concerns about the settlement agreement were documented in a lengthy
memorandum dated September 6, 2002, also sent to the SOL staff attorney. Despite Comer’s
acknowledgement that the SOL represented BLM, he claimed that Cherry was aware of both DOJ and
BLM’s concerns about the settlement agreement and it was Cherry’s responsibility to ensure that the
settlement agreement properly took those concerns into account.

Comer was then shown and examined the two letters prepared by the AUSA, dated July 18, 2002, and
August 28, 2002, which were critical of the draft versions of the settlement agreement. These letters are
addressed to the SOL staff attorney and indicate that Comer was also provided with copies. Comer
recalled receiving these letters and stated it was likely that the SOL staff attorney had shared these letters
with him. Comer stated that he may have, in turn, shared these DOJ letters with Cherry.

Comer was also shown and examined the two e-mails exchanged between Comer and Myers regarding
why the dismissal of Robbins’ Bivens/RICO lawsuit was not included as part of the settlement
agreement. Comer stated that the information he communicated in this e-mail to Myers represented
Comer’s understanding of the AUSA’s position. Comer insisted that the AUSA “refused to have the
RICO claims as part of the settlement agreement.” When Comer was informed that the AUSA had
described Comer’s e-mail to Myers as an absolute falsehood that completely misrepresents the AUSA’s
position, Comer stated, “[The AUSA] is part of the posse – use that term – against Mr. Robbins, and I
think is very concerned about getting Mr. Robbins.”

Finally, Comer acknowledged sending a written apology dated August 18, 2003, to Watson where he
wrote, in part, “I want to apologize to you for failing to brief you on the Robbins settlement, and
particularly for not speaking with you regarding the paragraph concerning the potential for your office to
become involved in a land exchange. I clearly should have spoken with you and I take full
responsibility.” However, when discussing the contents of Comer’s apology note to Watson during this
interview, Comer stated that it was BLM’s responsibility to brief Watson in regard to the settlement
agreement. He insisted that “the BLM was directly involved; the BLM Washington office was directly
involved in reviewing drafts of this and, in fact, called the shots on every single aspect of this document.”




                                                      24
